  Departent of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





MEDICARE BENEFICIARY SATISFACTION:

               1991





             4t  Richard P. Kusserow
                 INSPECfOR GENERA

                     ocBER 1991
                          OFFCE OF INSPECfOR                   GEN

The miion of the Offce of Inpeor General (OIG), as mandated by Public Law 95-452, as
amended is to protet the integrty of the Deparment of Heath and Human Servce
program as well as the heath and welfare of beneficiares served
                                                                             ' (HS)
                                                                     by thos programs.
statutory miion is caed out though a nationwide network of audits , investigations , and
inpetions conducted by thee OIG operatig components: the Offce of Audit Servce , the
Offce of Inestigations, and the Ofce of Evaluation and Inpetions. The DIG al inorm
the Sereta of HHS of program and management problems , and recmmends cour
correc them.



                                OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provdes al auditig           sece
                                                                      for HHS , either by
conducting audits with its ow audit resurce or by oversing audit work done by others.
   exe
Audits         the performance of HHS program and/or its grante and contractors in
cag     out their respee responsibilties and are intended to provide independent
asments of HHS program and operations in order to reduce waste, abus, and
mimanagement and to promote ecnomy and effciency thoughout the Department.

                                OFFCE OF INGATIONS
The OIG's       Ofce of Investigations   (01)   conduct   cral, ci and admtrative
investigations of alegations of wrongdoing in HHS programs or to HH beneficiares and of
unjust enrchment by provders. The investigative effort of 01 lead to cral convictions
admiistrative sanctons , or ci money penalties. The 01 al overs State Medcad fraud
control units which investigate and      proste
                                              fraud and patient abus in the Medcad program.

                   OFFCE OF EVALUATION AN INSPECfONS
The OIG' s Offce of Evaluation and Inpetions (OEI) conducts short-term management and
program evaluations (caed inpetions) that foc on isues of concern to the Department,
the Congres , and the public. The fidigs and recmmendations contaied in thes inpetion
report generate rapid, accrate, and up-to-date inormation on the effciency, wlnerabilty,
and effectivenes of deparmental program.

Th report was prepared in the Atlanta Regional Offce under the diection of Jes J. Flowers
Regional Inpetor General, and       Ch
                                   Koehler, Deputy Regional Inpetor General, Offce of
Evaluation and Inpeions. Project sta:

ATLA
Betty Apt, 
    Prject Leader             Wm. Mark Krhat, MPH
                                                                      RUSS AN        ASTE
                                                                      J. Robert Rus , Ph.
Pegg Danel, 
      Lead Analyst           Barbara Tedes               Daniel Craig Lokhart Ph.
Joe Towl                                  Brian Ritchie               Jance S. Rogan, Ph.D.
Chtopher Angl                             Vicki Greene
Kiberly Graves
Paulett Robert Monroe
                      ... .. .- -




  Department of Health and Human Servces
         OFFICE OF

    INSPECTOR GENERAL





MEDICARE BENEFICIARY SATISFACTION:

               1991





           W2'

                  Richard   KusserowP.


                  INSPECfOR GENERA
              EXECUTIVE SUMMAR
PUR
Ths surey of Medicae beneficiaries was conducted to assess beneficiar      experience
and satisfaction with varous aspects of the Medicare program.


BACKGROUN
The Offce of Inspector General (OIG) for the Department of Health and Human
Servces (HHS) has conducted a survey of a random sample ' of Medicare beneficiaries.
Parcipation in the survey was voluntary and yielded a response rate of 83 percent.
Responses were compared to those of a 1989 OIG survey to determine if there were
signcant diferences.

FIINGS
Ths survey of Medicare beneficiaries found that:
      Overall, beneficiaries appear very satisfied with Medicae.

             Seventy-nie percent say they   thi the program is understandable--a
             percentage which is signcantly   higher than in 1989   when 73 percent
             thought the program was understandable.

             Seventy-four percent understand the payment policies compared to 69
             percent in 1989.



             Ninety percent of the beneficiaries can get inormation about Medicare
             when they need it-a signcant improvement over the 85 percent in
             1989.

             Ninety-three percent are satisfied with the way Medicare processes their
             claim. In 1989   , onl those beneficiaries who submitted their own claim
             were polled, and 88 percent were satisfied.

             Eighty-four percent of those who have caed their      caer were satisfied
             with the servces they received. In 1989 ,   80 percent of those who caed
             caers' toll- free numbers were satisfied with the servces they received.
However, beneficiaries did experience some problems with Medicare servces.

       Two-thids (67 percent) identifed one or more problems they had
       experienced, such as understanding what Medicare paid on their claims
       and why (38 percent).

       Eighty- two percent of the callers identifed problems , particularly with
       the lie being busy (53 percent) or being put " on hold" too long (43

      percent).

Few beneficiares are aware of or use the special servces Medicare offers , such
as hospital mortalty data and nursing home inspection reports. Ths fiding is
simar to that of the 1989, survey.­
                                                        ................................................
                                                     ...........................................
                                                                               ..........................
                                           ..................................................... . . . . . . ..                                                                 , . ',. ..
                                                 . . . . . . . . . . . . . . . . . .. .. . .. .. ... .. .. . .. .. ... .. .. .. .. .. ... .. .. .. .. ... .. . .. .. . .. . . . .            '",-




                                                        TABLE OF CONTENTS

EX SUY
INODUcrON.




         Purose.




         Background




         Methods                                                                                                                            .................2

FIINGS                                ...................................................... 4


         Overal Understading of the Medicare Program . . . . . . . . . . . . . . . . . . . . . . . 4

         How Beneficiaries Get Inormation              .................................5


         Satisfaction with Oaims
                   Processing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




         Satisfaction with Caers ' Telephone Servces. . . . . . . . . . . . . . . . . . . . . . . . . .

         Use of Special Servces Offered by Medicare


ENNaI




APPENIX
         Appendix A:                                      Method and Sample Selection . . . . . . . . . . . . . . . . . . . . . . .. A-
         Appendix B: Responses to 1991 Surey of
                     Medicae Beneficiar Satisfaction . . . . . . . . . . . . . . . . . . . . .. B-

         Appendi C: Comparson                                                                      to the 1989 Survey. . . . . . . . . . . . . . . . . . . . . . ..                   C-

         Appendi D: Analis of Respondent vs.
                                                         Non-Respondents

         Appendi E: Problems with Telephone Servces. . . . . .                                                                            . . . . . . . . . . . . . . .. E-
                                                         and              Oai Processing


                                                                                                                                                                 f;,,
                          INTRODUCTION
PUR
Ths surey of Medicare beneficiaries was conducted to assess beneficiary experience
and satisfaction with various aspects of the Medicae program.

Responses were also compared to a 1989 Ofce of Inspector General (OIG) national
survey to   determe if there were significant diferences.

BACKGROUN "

Medar
Medicae is a Federal health insurance program for individuals age 65 and older and
for certn categories of disabled people. Authoried in 1965 by title XVII of the
Social Securty Act, Medicare serves approxiately 33 mion people , known as
beneficies In 199, Medicae paid benefits totallg $105 billion.
The Medicae program has two part. Part A (hospital insurance) helps pay for
inpatient hospital cae, some inpatient care in a skied nursing facilty, skilled home
health care, and hospice care. A person entitled to Medicare automaticall receives
thi coverage. Part B (medical insurance) covers physicians ' servces, outpatient
hospital servces, and other medica servces and supplies. Part B is optional.
Beneficiaries desirg this coverage pay a monthly premium. Both Part A and Part B
have deducttble and coinsurance requirements. Beneficiaries must pay these either
out of poket or through supplementa insurance coverage.

The Health Cae Financing Admistration (HCF                  Department of Health
                                                  A) withi the
and Human Servces (HHS) has responsibilty for the Medicare program. However,
other organtions share in the program s administration. The Social Security
Admitration (SSA) establishes eligibilty, enrolls beneficiaries in the program, and
collects the premium for Par B coverage. Priate health insurance companes
contract with the Federal Governent to servce claims for Medicae payment.
Inurance companies      that handle Par A claims are called intermedes Those
handlg Par B claim are called caeo.
Recen Chge
The Medicare program is continually undergoing change. In recent years Congress
has passed and repealed the Catastrophic Health Care Coverage Act, which would
have imposed the most far-reachig      changes to Medicare since its inception. Other
legislation requires that physicians and other providers submit al Medicare claims for
beneficiares. In addition, HCF A has implemented changes aimed at better servce for
beneficiares. Among them is the introduction of an automated telephone system for
the caers in        some States.

Relate   Stu
In 1989, the Inspector General conducted a national survey of Medicare beneficiaries
to assess their awareness of and satisfaction with various aspects of the Medicare
program. The report was entitled "A Survey of Medicare Beneficiary Satisfaction
(OAI- 0489- 8900). As a result of that study, HCFA requested that the Inspector
General conduct simar surveys of beneficiaries in Georgia ! and New Jerser-- States
where there had been report of beneficiary dissatisfaction with the Part B carrers.



MEODS
1991   SUley

A survey instrument composed of 47 questions was mailed in December 199 to 637
randoml selected beneficiaries for whom Medicare Part B claims had been fied in
Caendar Year 1989. Their paricipation in the survey was voluntar.

Nine beneficiaries were eliated from the sample for various reasons: five
questionnaires were undelierable , two beneficiaries were deceased , and two
indivdua had been erroneously selected. Ths reduced the sample size from 637 to
628.

A tota of 519 beneficiares retued completed questionnaies, for a response rate of
83 percent. (See appendix A for additional inormation on methods used in this
survey.

Con            to       Suey
The majority of the questions in thi survey were also used in the 1989 OIG survey,
though in some intances there were slight diferences in the wording and sequencing
of the questions. Where applicable , responses to the surveys were compared to
determe if diferences were statistica signcat. For purpses of this survey,
 signcat" dierences refer to those which were determed, using the t-test, to be
substantial. Instances where such differences were calculated are noted in the
Findings section of thi report. (See appendix B for responses to
                                                                  al questions in   this
survey and appendix C for a comparson of the two surveys.
                                                                           '''   ..- _ -:_ -;";::::":;   --




                                FINDINGS

Th survey of Medicare beneficiaries found that:
      Overal beneficiaries appear very satisfied with Medicare.
             Seventy-nie percent say they   thi the program is understandable, a
             percentage which is signcantly   higher than in 1989.


             Seventy-four percent understand the payment policies.

             Ninety percent can get inormation when they need it.

             Ninety- three percent are satisfied with the way Medicare processes their


             Eighty-four percent of those who have called their carrer were satisfied
             with the servces they received.



       Few beneficiaries are aware of the special servces Medicare offers , such as
       hospital mortality data and nursing home inspection report.

Approxiately 66 percent   of the respondents consider themselves to be in good
health, and 81 percent have medical coverage in addition to Medicare.


MOS    BENCI UNERAN TH MEICAR PROGRA
Over three-fourths (79 percent) of the beneficiariesthi    the Medicare program is
understandable. Statisticall, thi rate is signficantly higher than on the previous
surey, when 73 percent thought the program was understandable. The repeal of
catatrophic coverage since   the last survey could have contributed toward more

favorable responses.


Seventy-four percent of the beneficiares understand Medicare s overall payment

policies, compared to 69 percent in 1989.

                                                            . .. ",_._         - -   """-          .-   ~~~~




Of the beneficiares who have been hospitalied, 79 percent say they understand what
Medicare paid for. Th response is also signifcatly higher than the rate in 1989,
when onl 67 percent understood their hospital coverage.



                  BENEFICIARIES UNDERSTAND PROGRAM BETER
                    100
                                                                                             Legend
                                     79%                         79%                        1989
                                                                                     111991




                                   Prra     Pa Po Ho Cove
                                           UNDERSTANDABLE


Thee-fourths of the beneficiaries who received home health servces understand
payments for those servces.


BENCI CA GET INORMTION WH NEED.
Ninety percent of the beneficiares say they can get inormation about Medicae when
they need it. Th response is a signcat improvement over the 85 percent who gave
 that respons in 1989.
 A thid of the beneficiares say they have never needed to get specifc inormation
 about their Medicae coverage, but of those who have needed such inormation, 67
                             most of the tie. Th is signcatly higher than in
 percent were able to get help 


 1989, when 58 percent were able to get help most of the time.




                                                                         C.­
                                                                                                           F:-:;
                                                                               ':""'   .,   ,,,     ,,.




            MORE BENEFICIARIES CAN GET INFORMATION
           100
                             90%                                    Legend
                                                                  1989
                                                                  1991




                  Ca Ge   Ge    Info.
                                                      ft
                                                    Of TimeInf.
                                              Can Get 8
                                               Mo

From a lit of possible inormation sources, beneficiaries were asked to indicate which
places they would be liely to go if they had questions. Six-one percent say they
would go to their Social Security offces. Six percent say they would consult the
Medicare Handbook. and 35 percent would call their caers.

The Medicare Handbook is issued to beneficiaries when they enroll in the program.
Beneficiares are usually notifed of changes to the program through notices in the
mai. However, a new handbook was mailed to each beneficiary in 1989 after the
Catastrophic Coverage Act was passed by Congress, and then again in 199 after the
Act was repealed.

Most beneficiares (90 percent)  thi      Medicare Handbook is "general helpful,
                                        the


although onl 15 percent say they have used it 3 or more times in the last year. When
asked how they would lie to be notifed of Medicae changes, 61 percent of the
beneficiaries indicate a preference for notifcation through the mail. Fort-two
percent thi   Medicare should mai a new handbok each year.




                                                                         ""A                      :1,
                                                                                         :;:--"".;::'
                                                                                                  .'    :.-




BENCI     AR GENY SATI wr MEICAR'S
PROCING OF CL.
Effective September 1, 199, beneficiaries no longer submit claims. Providers submit
clais for them. Ninety- three percent of the beneficiaries are at least "generally
satisfied" with the way Medicae processes their claims. In 1989, only those
beneficiares who submitted their own claims were polled, and 88 percent were
satisfied.

Ths year 81   percent   thi their clais are paid quickly enough, which is signficantly
higher than in 1989   when only 74 percent thought so.

       BENEFICIARIES ARE SATISFIED WITH CLAIMS PROCESSING
              100                93%
                                                                       Legend
                                                                     1989
                                                                     1991




                    Sa wi Prng            Clams Pai   Qu Enough
CI Presg Prble
Although niety-three  percent of the beneficiaries, in general, were satisfied with
clai processing, many had encountered some diffculties. When gien a list
possible reasons they might be disatisfied with clai procssing, two-thids (67
percent) identied one or more problems they had experienced.

       Th-eight percent of al beneficiaries say they have had problems
                                                           why.
       understadig what       Medicae paid on their clai and

       Twenty-four percent cited a problem determg how much their other
       inurance should pay.

       Eighteen percent have had clais      denied.




                                                                                                              i ..IJla
       Fifteen percent have had diffculty getting information on the status of their
       clai.
Appendix E gives a breakdown of the problems beneficiaries cited , with relationship to
whether they were satisfied or dissatisfied with claims processing.



Over three-fourths (78 percent) of the beneficiares knew they could appeal decisions
made on their Medicare claims , but only 30 beneficiaries had ever fied an appeal.
Most of the 30 understood the fial decisions on their appeals (74 percent) and
thought their appeals had been handled fairly ( 65 percent).


MOS
SEVICE.
       BENCI AR                     SATIFI            WI CAR'            TEHONE

To faciltate their assistance   to beneficiaries   , Medicae carrers have toll- free
telephone numbers. The numbers are                     Medicare Handbook and on
                                           included in the

each notice sent to beneficiaries when a claim has been processed.

Th-  four percent of the beneficiaries have called their carers to obtain
inormation-using either the toll-free number or a local number. Eighty- four percent
of those who have caed say they were satisfied with the servce they received.
However, 82 percent of the callers cited various difculties       they have experienced
when callg   carrers.
Prble wi Telphone Sees

From a litof possible reasons beneficiaries might have been dissatisfied the last time
they caed their caers:

       Fif-three percent (70 percent of those who say they were satisfied) say the
       lie was busy.



       Fort-three percent (49 percent      of those who say they were satisfied) were put
       on hold" too long.


       Twenty-fie   percent say they received diferent       aners from diferent people.
       Sixeen percent did not understand the carrers '        aner(s).
       Theen percent sad the person answerig the call was not very courteous.
       Ten percent were unable to get their questions anered.
Appendix E gives a breakdown of the problems beneficiaries cited, with relationship to
whether they were satisfied or dissatisfied with carrers ' telephone servces.

AuImtte Voice
Some carrers use an automated voice sytem for responding to inquires.        Thir- five
beneficiaries in the survey had experienced these systems. Nineteen of the
beneficiares, however, said they did not have a touch-tone phone to utile    the servce
and 12 reported difculty understanding the directions.



FEW BENCI USE SPEC SERVICE OFF BY MEICAR
Seond Opn on th 1: for Surer
Less than half (41 percent) of the beneficiaries are aware that Medicare pays for a
second opinon concerning the need for surgery.

Hal of all the beneficiaries   thi   second opinions should be required for non-
emergency surgery. Most of the others say it should depend on the tye surgery
recommended.

Of the beneficiares who have had surgery since being covered by Medicare, only 28
percent have sought a second opinon.  Most got the name of the second physician
from the physician who recommended the surgery. Only two beneficiares had ever
used Medicare s Second Opinon Referral Center.



Physicians who agree to charge beneficiaries no more than Medicae s approved
amount for varous servces are called "participatig physicians. " Over three- fourhs
(76 percent) of the beneficiares are aware that some physicians work under thi
arangement. Six-one percent of the beneficiaries go to paricipating physicians.
Twenty-eight percent do not know if any of their physicians are "participating.

About hal (51 percent) of the beneficiaries know they can get inormation from
Medicae about parcipatig physician. That response is signcatl higher than             the
43 percent in 1989. However, onl 16 percent of those who know of this servce have
ever used it. Six-fie percent of al the beneficiares indicate they would be liely to
contact Medicae about parcipatig physician in the futue.
                                        . .   .. -                          ..   '-             ~~~




           gu and Nung      Home    Rep
Every year HCF A publishes Medicare beneficiary mortality rates for individual
hospital. The information is designed to help beneficiaries (and others) make
inormed choices in selecting hospitals. The HCF A also publishes the results of
nursing home inspections.

Beneficiares are more aware of the nursing home report than they      are of the

mortalty figures, as the followig chart shows:

                  FE AR AWAR OF MEICAR RERTS
                                                                     Nurin Home
                                              Mortty Rate              Inpeons
                                              1989      1991        1989           1991

 Respondents Aware Of                         10%                    21%              25%
 Inormation
 Those Aware Who Have Used                                                            10%
 Inormation
 Respondents likely To Use

 Inormation In Future                         54%       51%          86%              88%


  signifcantly diferent


In summary, the level of beneficiar satisfaction in 1991 is at least as high as in 1989,
and is signcantly higher for some aspects of the program.




                                                                                        ::"f­
                                                                  .""      ,:. - -   ,".          '., ...




                               ENDNOTES

1. Offce of Inspector General, United States Deparment of Health and Human
Servces. Beneficiary Satisfaction with Geor s Medicare Carrer . OEI- 049001050.
Februar 199.

2. Offce of Inspector General, United States Department of Health and Human
Servces.   New Jersey Medicare Beneficiary Satisfaction . OAI- 02- 900204. October
199.
3. A beneficiar   s failure to cite a problem from the list is interpreted as not havig
experienced that problem. Percentages are calculated.accrdinglY
4. A beneficiar s  failure to cite a problem from the lit is interpreted as not havig
 experienced that problem. Percentages are calculated accordingly.




                                                                                           f"'o             :J:
                                                                        .'   ~~~~     ''''''           ,::"""", ';-




                          APPENDIX A

                     MEODS AN SAMLE SELON

The purpse of thi survey was to assess beneficiar           satisfaction with
                                                    experience and
the Medicae program. The sample unierse was comprised of beneficiares who
received Par B Medicare benefits in Calendar Year 1989.

From approxiately 25 miion individuals who received such benefits , a non-stratifed
simple random sample. was selected.

Based upon previous exprience with simar client and beneficiar surveys, the sample
siz was calculated to produce an estimate withi 10 percent of the true value at the
95 percent confdence level. To    are  at the sample size, standard equations were
used for estiating sample size with a binar response variable.

A sample of 637 Health Insurance Qaim (HIC) numbers was drawn from HCF A'
Par B Medicae Anual Data System (BMA) fies. Those numbers were cross-
matched with Social Securty s Master Beneficiary Record (MBR) fies to obtain the
name and address associated with each HIC.

Six hundred th-seven questionnaires were maied on December 14, 199. It was
subsequently learned that two beneficiaries were deceased and two were erroneously
selected. In addition, fie questionnaies were undelierable. Ths reduced the sample
from 637 to 628.

A second maig to 247 non-respondents was done on January 8, 1991. Two weeks
later, telephoneca   were made to those for whom numbers could be obtained.
These follow-up effort resulted in the receipt of 163 responses.


Ultiately, beneficiaries retued   519 completed questionnaies. The response rate was
83 percent.




                                                                                               r- ""
                            APPENDIX
       RENSES TO 1991 SURVEY OF MEICAR BENCIY
                                 SATIFACI0N

. Not every respondent answered every question. Percentages are based on actual
  responses. The number of respondents not answerig an individual question is not



  roundig.
  included in the caculation of percentages.



. The sum   of indivdual percentages may not equal' 100 percent due to independent


                    11 , 13 , 19, 22, 24 and 44 , respondents could check more than
. For Questions 2, 9,
  one choice. The sum of the percentages wi total more than 100.



Queson                                          Respons       Percentage


PART 1: MEICA           COVEGE
1. In genera do you   tb­
  a. The Medicae program is
     understadable?

                                                 395

                                                 107

         NO ANSWER:

  b. You ca get inormation about
     Medicae when you need it?


       NO ANSWER:

  c. Medicae payment policies

     are understandable?

                                                 366
                                                 128
       NO ANSWER:
                                                                                                   '!;.




                                                   Respons       Percenta
Quesn

      d. Medicae pays your clais
           quickl enough?

                                                      399

                  NO ANSWER: 27
                                                                                Medcae?
2. Wht            ty of medca   inurce do you or your spous have in addition to

      (N
           =4fT     - Number Respondig to Question)

           MEDICAI
           HEALTH INSURCE RELATED

                                                      155

              TO EMPLOYMNT
           PRIVATE INSURCE TO

            SUPPLEMENT MEDICAR                        126

           CHUS                                       134
           OTHR
           DO NOT HAVE ADDITIONAL
            INSURCE COVERAGE

             NO ANSWER: 22


3. Do you feel at th tie you         ar in goo heath?

                                                       325

                                                       171

                   NO ANSWER: 23

                                                                                you have ben
 4. Have you ev ben a patient in a hosita for         at leat one night since

 cored by Medcae?
                                                         334
                                                         173
             NO (Skip to Q-6)
               NO ANSWER: 12
                                                                                      in a
  Thinkig about the mos recnt tie you were a patient at
                                                                  leat one night

 hopita wa it clea. to you what Medca pa for?
 5.




                                                         251

                   NO ANSWER:




                                                                                ,:7          v",
                                                                      ",?,-".          '"         ;,:




Question                                          Respons     Percnta
6. Have you ever recived medca servce in your home from a home heath agency
since you ha ben         core by Medca?
            NO (Skip to 0-                          424

               NO ANSWER: 20


7.    Thin1r about the mos rent        tie you recived medca servce in your home from
a home heth         agency, wa it clea to you what Medca pad for?



               NO ANSWER: 2

8. If you should ever nee        nur home ca do you have a way to coer the cot?
                                                    125

            NO (Skip to 0- 10)                      320

            CUNTY LNIG IN NUSING
              HOME (Skip to 0- 11)

               NO ANSWER: 56


9.     li
        below are some ways peple might pay for nuring home ca. Whch of
would you rely on jf you ever neeed nuring home cae for more    month?
                                                                 th




           (N=118 - Number Resndig to Question)
             PERSONAL SAVIGS
             REMENT INCOME
             PRIVATE INSURCE

             MEDICAI

             EOUIT IN YOUR HOME
             OTHR

               NO ANSWER: 7


     10.   Ma peple th     Medcae wi pay for long-term nuring home
                                       thmonth?
                                      tht Medca WOUl PAY for long-term
                                                                      ca.
                                                                   It cuentl
                 Before toW. did you
 nu ho
 doe no 


                    ca for more   th




                                                    107

                                                    313

               NO ANSWER: 





                                                                                "'l"        ;?f         't ,...
Queson                                             Respons      Percenta

PART 2: GHITlN       INRMTION ABUf MEICAR
11. The followg ar some place peple might go to get aners if they have questions
about their Medca cora. Would you be liely to go to an of the followg?

   (N=S09 - Number Respondig to question)



  TH MEDICAR
                      CLS
  INSURCE COMPAN. THT PROCESES,
   YOUR MEDICAR
                     HABOOK  180
                             303


   YOUR DOcrOR'
                   RElATI
  TH SOCIA SECUIT OFFCE 312
   A FRIEND OR
                   S OFFICE                          198
   AN INSURCE
   A SENIOR CITEN'      SSALPERSON
   AA OR OTHR MEMBERSHIP

                           GROUP
    GROUP                                            114

   OTHR

         NO ANSWER: 


12 We would lie   to ask you about ties   when you have     neeed to get   spec
inormtion about your Medcae coerae. How often were you able to get the
inormtin you neeed?


     MOST OF TH                                      228
     SOME OF TH 

     SELDOM OR NEVER

     I HAVE NEVER NEEDED

       INORMTION                                     168

        NO ANSWER: 





                                          B - 4

Queson                                             Respons   Percenta

Medca    pr
13. Lite below   ar ways the Goernent could us to tell peple about changes in the
                      Whch way would you lie to be notied of chages?

  (N=509 - Number Respondig to Question)
     PAMHLTS OR HABOOKS

      THOUGH                                         308

     NOTICE WI SOCIA SECUIT
                      TH MA




      CHCK                                           211
     ANOUNCEMENT IN
       NEWSPAPER

     ANOUNCEMENT ON TELEVISION

      AN RAIO

     SPEECH OR PREENTATIONS BY

      MEDICAR REPREENTATIV

     OTHR

         NO ANSWER: 

14. Do you th Medca nee to ma a complete, updted Medcae             Handbk each
ye   to everyone who ha Medcae?

                                                     209

                                                     293

         NO ANSWER: 


15. How ma    ties in the pat      yea have you    us your Medcae Hadbk?
       TITH
     MORE
                 OR
                              TI                     298
                                                     , 54
     I DO NOT RECAL RECEIVG A

      MEDICAR HABOOK

      (Skip to Q- 18)                                 116

         NO ANSWER: 51


16. Do you   th the Mede Hadbk
     GENERAY HELPFU                                  304

     GENERAY NOT HELPFU

         NO ANSWER: 16





                                          B - 5

Queson                                             Respons       Percenta
17.   Thinking about the Medcae     Hadbk you have recived       would you say tht...

      a. The wording is eas to
        understad?
                                                    253

           NO ANSWER: 20

      b. The amount of inormation
         covered is sufcient?
                                                    249

           NO ANSWER: 27

      c. The letterig is large
        enough to read?
                                                    315

           NO ANSWER:


PART 3: MEICA

18.   Ovra how satified are you with the way Medcae        ha   proc your clai?
        VERY SATISFIED                               143
        GENERAY SATISFIED                            320
        GENERAY DISSATISFID
        VERY DISSATISFID
           NO ANSWER:




                                          B - 6

Question                                           Respons      Percentage

19. The                              someone might be ditified with Medcae
          followg are poible reans why
cla     Hae an of the followg ben a prblem for you?

      (N=349 - Number Respondig to Question)
        GETTG INORMTION ON
         STATUS OF YOUR CLAS
        DETERMINING HOW MUCH SHOUL

         BE PAI BY OTHR INSURCE

         YOU HAVE                   123

        UNERSTANING WHT MEDICAR

        OTHR      CLS AN WH 198
        PAYS ON YOUR
        MEDICAR DENYG YOUR CLAS
           NO ANSWER: 170


PART 4:     CAG MEICAR
20. Have you ever caed the inurce          compa tht    pro your Medcae cla?
                                                     174

        NO (Skip to Q-25)                            333

           NO ANSWER: 


21.   Thinking   about the lat tie you   caed how satified were you with the servce you
reiv?
        VERY SATISFIED

        GENERAY SATISFIED                            102

        GENERAY DISSATISFID

        VERY DISSATISFID
          NO ANSWER: 2




                                            B ­

                                       ."..". .   -..




Question                                                Respons    Percenta
22 Uste below     ar poible reans tht someone would be ditified with cag the
ince compa.           Did you have   an of the followg problems     the lat tie you
caed?
      (N=143 - Number Respondig to Queson)
        LIN WAS BUSY

        PUT ON " HOLD" TOO LONG
        ANSWERS GIVN WERE NOT
         UNERSTANABLE.
        GOT DIFRENT ANSWERS FROM
         DIFRENT PEOPLE
        WAS NOT ABLE TO GET MY
         QUETION(s)ANSWERED
        OTHR
        PERSON ANSWERING CAL WAS NOT
         VERY COURTEOUS
           NO ANSWER: 31

23.Thinking about the la tie you caed the inurce                compa tht proc    your
cla how wa your ca anered?

        BY A MEDICAR EMPLOYEE

         (Skip to Q- 25)                                 115

        BY AN AUTOMATED VOICE

          NO ANSWER: 24



in
24.   lite below ar poible reans tht someone would be ditified with cag the
           compa and gettg
th la tie you caed?

                               an    automated voice. Did you have an of thes problems


      (N=32 - Number Respondig to Queson)
        DID NOT HAVE A TOUCH-TONE
         TELEPHONE TO REPOND TO
         AUTOMATED VOICE SYSTEM

        COUL NOT UNERSTAN 

         DIRCIONS GIVN BY
          AUTOMATED VOICE SYSTEM

        OTHR

           NO ANSWER: 3





                                             B - 8

Question                                             Resns         Percentae

PART        S:   APPEAG
25. Someties peple        diee
th happns you may appe or request a           re
                        with the decions made on their Medca cla. When
                                         of thos decions Did you know
before tody tht       you Could   appe or reuest a revew?
                                                       390

                                                       110

                 NO ANSWER: 

26 Have you ever appeed a decion made by Medcae               on a cla   you submitted?



            NO (Skip to Q- 29)                         457

              NO ANSWER: 32


27. Did you understad the fial       decion made on your cla?


                 NO ANSWER: 3

28 Do you         th your appe wa      handled faly?




                 NO ANSWER: 4


PART 6: 
        GHITlNG SEND OPINONS
29. If your docr recmmends tht you have surgery, Medca             wi help you pay to get
the opion of another       doc
                           to mae sur the sugery is           re
                                                                   nec.e.      Were you
            before tody tht   Medca would help to pay for you to get a send opinon
            ha suery?
awe

before

                                                       207

                                                       298

                 NO ANSWER: 





                                            B - 9

                                                . -   " , .,.   .                         , -­---   .- -   - -   ---




Question                                                        Respons       Percentae

to mae su
         th
30. Do you  peple             should be requied to get
                    non-emergency surgery is rea n       ecss
                                                                    a send opinon frm another docor

                                                                    255

          DEPENDS ON TH          TYE 

           SURGERY                                                  234

            NO ANSWER: 


31. Have you ever ba sury since you have ben coered by Medcae?

                                                                    292

          NO (Skip to Q-36)                                         210

               NO ANSWER: 

32. Were you awae         before tody tht   you could get            the nae of   send docor frm
Medca Send Opinon                Referr Center?


                                                                    213

               NO ANSWER: 6


33.Thinking about the lat       tie you had surery, did you get a             send docor's opinon
before havig the surery?


          NO (Skip to Q-36)                                         209

            NO ANSWER: 2


34. Where did you get the nae        of the send docor you got an opinon from?

      (N=79 - Number Resndig to Queson)
          FROM TH        DOCOR

             RECOMMNDING SURGERY

          FROM ONE OF YOUR OTHR
              DOORS
          FROM A FRIEND OR RELATI
          FROM MEDICAR'S SECOND

             OPINON REFERR           CENTR

          OTHR

                NO ANSWER: 2





                                              B ­

                                                                                      :..   ,...'---,         ,,,   -,,




Question                                         Respons              Percentae

35. Did you or your docr   fie a Medcae cJa for the send docor's opinon?


     DON'T KNOW

           NO ANSWER: 0



PART 7: "PARTICIATIG DORS"                 PROGRA
36 Medca ba "pcipatig docrs who hae agee to chage no more
Medcae s approed amount. Medcae pays 80% of the approved amount, and you
onl resnsible for payi the deducbble and the 20           Before tody.

                                                          coinurce.


                             "pcipatig docors prog?
you evr hea about Medcae
                                                  386

                                                   121

           NO ANSWER: 12


37. Are an of your docors "pcipatig" docrs?
                                                   304

          DON'T KNOW                               139

            NO ANSWER: 


 38 Were you awa     before tody tht   you could get   inormtion on which docors are in
 Medca        "pcitig" prog?
                                                   251
          NO (Skip to Q- 4O)                       245

            NO ANSWER: 23


 39. Have yo    evr us th inormtion to selec a docr to viit?
                                                    210

            NO ANSWER: 2



   't 


                                          B ­


                                                                                                        C""                   0":.
                                                                                                                          ,.r"""
                                                                           "-0: T/,
                                        -, .                            . '" ,""   --.   ?'!:'




Question                                       Respons           Percentage

40.   Thinkingabout the futu, how liely ar you to us the inormtion about
pacipatig    docors to selec a docor to viit?

        LIKLY TO USE TH INORMTION 316

        NOT LIKLY TO USE 

          INORMTION                             169

           NO ANSWER: 34



PART 8: HEnI         CA. FACI
41. For peple who  ar interested the Medcae prog ha inormtion by indidua
hospita on  mortty (death) rates of Medcae patients           before tody
                                                       Were you awae

tht the   Federa Goernent publihes "Medcae Hospita Mortty Inormtion?"

        NO (Skip to Q-43)

          NO ANSWER: 42


42. Have you ever   us the "Medcae Hospita Mortty Inormtion" to choo                 a
hosita?


           NO ANSWER: 0

43. If in the futue you nee to be hospitali how liely are you to us the mortty
(deth rate) inormtion to selec a hospita? (Asume you have a choice of going to one
of tw hospita and both ar equa convenient and semigl of equa quaty. Would
you us th mortty inormtion to selec which hospita to go to?)
        LIKLY TO USE TH INORMTION 236

        NOT LIKLY TO USE 

          INORMTION                             228

           NO ANSWER: 55





                                      B ­



                                                                                                 't'   ,j.t
                                                                               --- ..- -




Question                                              Respons   Percenta
44. Who seleced your hospita the la tie you were hospitali7.e

   (N=48 - Number Respondi to Question)
      YOU                                              175
      YOUR DOcrOR                                      280
      YOUR RELATI OR FRIENDS
      OTHR
      HAVE NEVER BEEN IN HOSPITAL.
        NO ANSWER: 32

45. The Medcae
on nurg
                      prog    aJ  publihes inormtion on the results of inpeons done
            homes      Before tody. were you   awa tht the Federa Goernent had
ty   of inormtion on nurin         homes?

                                                       120
      NO (Skip to Q-47)                                370
        NO ANSWER: 29

46 Have you ever       us th inormtion to choo a nuring home?

                                                       106
           NO ANSWER: 2

47. Now tht     know about the nuring home inormation, ar
                you                                             you   liely to us the
inormtion if you should nee to selec a nuring home?
      LILY TO USE TH INORMTION                         416
      NOT LIKLY TO USE
       INORMTION
           NO ANSWER: 45

Is there   an         els you   wat to teD us about Medca?
      POSIT

      NEGATI
      MID
      OTHR
           NO ANSWER: 369




                                            B - 13

                                                   APPENDIX C

                                      COMPARN TO TI               198 SURVEY


   SIM BET                                          TI SUVEYS

The majority of the questions from the 1989 Medicare Beneficiary Survey (OAI- 0489­
8900) were used in the 1991 survey. Twenty-eight questions from the earlier survey
were essential duplicated in the current surey. In the current survey those questions
were numbered 1, 3- , 12, 25, 29, 31 , and 33- 47.

Eight additional questions were similar to previously asked questions. But for 1991 , the
scope of those questions, or the segment of beneficiaries to whom they were addressed,
were appropriately updated.

   Questions 16 and 17 ask specifcally about the Medicare Handbook.                 In 1989,

   beneficiaries were asked about all Medicare inormational material.


   Questions 18 and 19 about claim  procssing were asked of all beneficiaries. In 1989,
   only those beneficiaries who submit their own claims were asked. (providers submit
   al clai         now.

   Questions 20-22 ask beneficiaries about their experiences calling their carrers using
   either a loca number or the toll-free number. In 1989, they were asked only about
   the toll-free number.

   Q1Jestion 32 about the Medicae Second Opinon Referral Center was asked of only
   those beneficiaries who had had surgery since being covered by Medicae. In 1989,
   all beneficiares were asked.


n. DIFCE                          BET TI SUVE
The current surey used a questionnaie of larger prit, for easier reading by
beneficiaries. There were alo fewer questions, 47 compared to 54 in 1989.
(Contnbuting toward a reduction in the number of questions was the repeal of the
Catatrophic Health Cae provions.

The wording and/or format of some questions were changed. In 1989, the questionnaie
contaed a YE or NO format                           priar.
                                          In 1991, beneficiares were asked to "CHCK
AL THT APPLY.       " That is, intead of circlig ' 'Y'' or " NO"      checked the
                                                                           , they


applicable responses. Alo, for the current survey some




                                                             C­
                                                                                   - -




questions were designed to offer a greater number of optional responses. For example,
Question 22, on possible problems related to
seven options; previously there were six.
                                                 cag
                                                   a carrer for information, contained



Resns Rates
In 1989, there were 401 respondents , and in 1991, there were 519. Thus, the response

rate for the 1991 surey was 18 percent higher than the previous rate (83 percent vs. 

percent).



      FIINGS OF SIGNICAN
      SUVES
                                       DIFCE BET 11                          1WO

Where suffcient simarities existed between questions in the two surveys, responses were
compared to determe if differences were statistically signcant. For purposes of this
survey, "signcant" diferences refer to those which were determed, using the t- test, to
be substantial. The purpose was to determe whether the two surveys reflect signcant
diferences regardig beneficiaries ' experience and satisfaction.

The followig discusses !m those questions for which responses were signcantly
diferent.

More Beneficies Understad The        Medca Prog
   In the 1991 survey, 79 percent of the    beneficiaries   thi the Medicare program is
   understadable; seventy-three percent thought it was understandable in 1989.
More Beneficies      Th Cl         Ar Paid QuckJ Enough
   Eighty-one percent and seventy-four     percent of the beneficiaries in 1991 and 1989
   respectively,   th their clai   are paid quickly enough.

Mor Beneficies Undersd Hospita Payments
   In 1991, 79 percent of the beneficiaries who had been hospitalied      understood what
   Medicae paid, compared to 67 percent in 1989.
More Benefies        Ca Get Inormtion When Neeed
   In the 1991 surey, 90 percent of the beneficiares say they ca get inormation about
   Medicae when they need it. In 1989, 85 percent thought they could get such
   inormation.




                                            c- 2

                                                                                                 ...   - -.. ...- -   " ::




      Fort-five percent of the beneficiaries in the 1991 survey could get specific
      inormation about their                   coverage   most of the
      percent) were able to get information most of the time.
                                                                        tie. In 1989, fewer beneficiaries (37
More Beneficies Ar Awae of the "Parcipatig Physician
or Ar Liely to Use the Inormation to Selec a Phyici
                                                                                      Prog but Fewer Use
      Beneficiares were much more aware of the "participating doctors" program than in
      1989 (51 percent in 1991, and 43 percent in 1989).


      However, in                             the information about the program to select
                            1991, fewer beneficiaries

      a docor (9 percent compared to 14 percent in 1989). Also , currently fewer
                               likely to use the information (51 percent compared to 68
      beneficiaries said they were

      percent).

Fewer Beneficies Are                      FamiJar With The Medcae Hospita Mortty Inormtion.

                        1991 survey were less famiar with the hospital mortality
     Beneficiaries in the
     inormation than those in the 1989 survey-- 7 percent in 1991 vs. 10 percent in                                   1989.




                                                             c- 3

                                                                                   ""




                              APPENDIX D

              ANALYSIS OF REPONDEN VS. NON-REPONDEN


 A consideration in surveys of this tye is that the results may be biased if the non-
 respondents are signcantly diferent from the respondents. To determe whether
signcant diferences exist in this survey, varous analyses were performed, including a
comparison of the age and gender of the 519 respondents and the 109 non-respondents.
The analysis revealed no indication of biased survey results.


ANALYSIS BY AGE

The average age for respondents was 73 , compared to age 74 for non-respondents.
There being no signcat diference between the average ages for the two groups, it was
unnecessar to further analyze this area.


ANALYSIS BY      GENER
The analis by   sex showed that 41 percent of the sample population were males and 59
percent were females. Ths distnbution very closely approximates the distnbution of
males and females in the overall Medicare beneficiar   population.

The ditnbution of males and  females responding (41 percent/59 percent) was
comparable to the distnbution of non-respondents (39 percent/61 percent).

Eighty-three percent of the men in the sample responded, and 82 percent of the women
responded.

The representativeness of the sample and comparable response rates for males and
females suggests the absence of bias.


ANALYSIS BY     TI OF RENSE
As an additional guard agaist biased results some surveys simar to thi one
reviewed for diferences which may exit between early and late responses. The- rationale
is that late respondents and non-respondents may share certai tendencies. For exaple,
when compared to early respondents, late respondents and non-respondents could hold
more negatie (or, at least, less enthusiastic) opinons.




                                          D­
                 . ,   ~~~            ""' '''   "", ''' .-.. ......   ...   -_.

                                                                               -,   .- --.,                                  ..   --- . :;




                To test for possible non-response bias in this survey,                         the fist 403   responses (78 percent)
                were compared to the last 116.

                Thee key questions on the questionnaire (Questions 1a, 1b, and 1d) were used for that
                analysis. The three questions, posed to all respondents, relate to program
                understadabilty, inormational servces, and claim processing.


                The early responses to the key questions were , cumulatively, 84 percent positive. The
                later responses were 81 percent positive. Ths diference of three percentage points is
                not statisticall signcant.




                                                                                       D- 2



.o.   :t::\..                I"",
                    , '
                                                                                 ""I:DA    -h- "'''   ",--- ---     .''."-'':r'''   ,"''      ,. ,..
                                                                                                                                           ..-..'         .--            . ':;.
                                                                                                                                                                         , "'




                                                APPENDIX E
                 PROBlE WI TEHONE                            SERVICE AN                   CL PROCING
            Ths appendix presents a breakout of beneficiares' responses regarding problems they
            have exprienced. Prom a list of possible reasons they might have been dissatisfied the
            last time they called their carrers, beneficiaries cited problems they experienced. In a
            simar manner they cited reasons for dissatisfaction with claims processing.

                                      SOME HAVE          PROBLE CAG


                                           Caed              Cited                                 Generall                                            Very
                                           Carrer          Problems        Satisfied3             Distisfied4                               Distisfied5
                                           N = 174         N = 143         N = 144                    N = 19                                         N = 9
             Problems Usted               Freq. / %6       Freq. / %       Freq. / %                  Freq. / %                                     Freq. / %
   lie Bus                                92 /53%          92 /64%         78/ 54%                    9 / 47%                                       5 /    56%
    On Hold Too Long                      74 / 43%         74/ 52%         55 / 38%                   15 / 79%                                      4 /    44%
   Recived Confctg Aners                  43 /25%          43 /30%         26 /18%                    8 / 42%                                       9 /100%
   Aners Not Understoo                    27 /16%          27 /19%         19 /13%                    5 /26%                                        3 /    33%
   Not Very Couneous                      22 /13%          22 /15%          10 / 7%                   6 /32%                                        5 /    56%
   Inquir Not   Anered                     18 /10%         18 /13%          10 /7%                    3 /16%                                        5 /    56%


                                       SOME HAVE         PROBLE Wl

                                                                Cited                                             Generally                                      Very
                                       Beneficiares          problems           Satified3                    Distisfied4                               Distisfied5
                                         N = 519              N = 349            N=463                            N = 25                                        N = 12
           Problems Usted                Freq. / %6          Freq. / %          Freq. / %                         Freq. / %                                Freq. / %
 Understading Medica

 Payments & Why                          198 / 38%           198 / 57%          168 / 36%                         17 / 47%                                  7 / 58%

 Determing Amount Other

 Inurnce Should     Pay                  123 / 24%           123 / 35%          106 / 23%                         12 / 48%                                  3 /25%

 Had   Cl     Denied                      95 /18%             95 /27%            74 /16%                          11/ 44%                                  9 /75%
 Getting Statu of   Clim                  80 /15%             80 /23%            64 /14%                            6 /24%                                      6/50%

Number of beneficies who had     called their   caers.
Number of beneficiries who cited one or more problems.
Numbe of beneficiries who said they were "very or Wgenera satisfied
Number of beneficies who ' sad they were Wgenera         ditified
Number of beDefici . w)lo said they were "very     ditified
6percDtage of the population if a beneficirys faiure to cite the problem   lite is interpreted as not having                                 exrience the
problem.


                                                               E­
